 

In THE
Supreme Court of the United States

SEQUOIA CAPITAL OPERATIONS, LLC; TCV V, L.P.;

Petitioners,
v.

JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS

SIMILARLY SITUATED; ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,555 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 11, 2019.

Ll.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
